                                                     UNITED STATES
                                 S E C U R I T I E S A N D EXCHANGE COMMISSION
                                              W A S H I N G T O N , D.C.   20549

         OFFICE OF 

    INSPECTOR GENERAL 
                        MEMORANDUM

                                                   September 9,2008

              TO: 	          Jefiey Risinger
                             Associate Executive Director for Human Resources

              FROM: 	        H. David KO&/~ 

                             Inspector G 


              SUBJECT: 	 Attorney Annual Certification of Bar Membership (No. 455)

                      A recent investigation by the Office of Inspector General (OIG) found evidence
              that an attorney employed by the Commission failed to maintain an active membership in
              any bar for numerous years, while continuing to represent himself to be a Commission
              attorney. A previous OIG investigation found that a Commission supervisory attorney
              had never been admitted to any bar. The Commission's Office of Ethics Counsel
              recently reminded all Commission attorneys that active bar membership is a condition of
              their employment and that they must take the necessary steps to keep their membership
              active.

I                     We are recommending that to ensure Commission attorneys comply with the
              requirement of maintaining active bar membership, all Commission attorneys should be
              required to certifl on an annual basis that they are an active member of the bar of at least
              one State, territory, the District of Columbia, or the Commonwealth of Puerto Rico. The
              annual certification should also require Commssion attorneys to acknowledge that the
1             failure on their part to maintain active bar membership at any time during their
              employment as an attorney with the Commission will result in a referral to the
              appropriate authorities and may result in their pay being withheld andlor disciplinary
              action against them

                      Recommendation 1

                      The Office of the Human Resources, in consultation with the Office of the
                      General Counsel, should require all Commission attorneys to certify on an
                      annual basis that they are active bar members and to acknowledge that the
                      failure to maintain active bar membership will result in a referral to the
                      appropriate authorities and may result in their pay being withheld and/or
                      disciplinary action against them.

              cc: 	   Peter Uhlrnann, Chief of Staff
                      Diego Ruiz, Executive Director
                      Brian Cartwright, General Counsel
                      William Lenox, Ethics Counsel
                      Darlene Pryor, Management Analyst, Office of Executive Director
